September 28, 2009

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:             Audit Report – Delivery Vehicle Fuel Management
                     (Report Number DR-AR-09-009)

This report presents the results of our nationwide audit of Delivery Vehicle Fuel
Management (Project Number 09XG002DR000). Our objective was to evaluate the
business case to fuel delivery vehicles onsite using a mobile fueling1 contractor rather
than continuing the current practice of carriers purchasing fuel at local retail vendors
using the Voyager Card. We conducted this audit based on a request from the Postal
Service. See Appendix A for additional information about this audit.

Conclusion

There is a favorable business case for expanding the use of mobile fueling to selected
Postal Service delivery units. Our analysis determined that an expansion of the mobile
fueling program would:

               Reduce carrier time used to fuel vehicles and the amount of fuel consumed
                when carriers deviate from their routes to obtain fuel.

               Eliminate questionable Voyager card fuel expenditures at selected Postal
                Service delivery units.

               Mitigate mail delays or interrupted service due to the unavailability of fuel at
                local fuel vendors in areas susceptible to natural disasters.

A sufficient number of mobile fueling contractors are available with the capacity to
provide fuel needed in an expanded program. Further, environmental regulatory
concerns can be successfully addressed through the contracting process. See
Appendix B for our detailed analysis of this topic.


1
    Fuel transported directly to delivery units by a mobile fueling contractor to refuel vehicles.
Delivery Vehicle Fuel Management                                         DR-AR-09-009



While the Postal Service currently uses mobile fueling at some locations in an
emergency capacity, they had not evaluated the potential benefits and obstacles
resulting from expanded use. When the Postal Service fully considers these factors at
selected delivery units, it could reduce delivery operating costs by over $23.2 million for
fiscal years (FYs) 2010 and 2011. We have identified $21,423,261 in funds put to better
use and $1,784,914 in unrecoverable supported questioned costs. See Appendix E for
additional details.

We recommend the Acting Vice President, Delivery and Post Office Operations, in
coordination with Vice President, Supply Management:

1. Consider as part of the Postal Service’s National Fuel Purchasing Strategy
   expansion of mobile fueling for city and rural delivery units with 30 or more routes
   using Postal Service-owned vehicles, as well as other delivery units as necessary.

Management’s Comments

Management agreed with the finding and recommendation stating they will continue to
use mobile refueling as part of the national fuel purchasing strategy. Management also
agreed to review mobile fueling as part of the strategy and expand its use when and
where it is warranted. The estimated date for completion of the fuel strategy is June
2010.

Finally, management stated it had just completed route adjustments and it would not be
cost effective to make further adjustments. We have included management’s
comments in their entirety in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation. Management’s corrective actions should
resolve the issues identified in the report.

Regarding the price per gallon for fuel used in our analysis, we agree with management
that the $3.95 price per gallon for fuel in 2008 was an atypical year in terms of fuel cost.
However, we did not base our savings analysis on the retail price per gallon, but rather
on the variance between the retail price per gallon and the bulk rate price per gallon. As
we explained in the report, this price averaged 23 cents less than the retail price per
gallon since October 2007. Since we accomplished our audit using 2008 data, we
applied the more conservative 2008 average rate which was 15 cents per gallon less
than retail. As such, the retail price per gallon has no impact on our savings amount, as
long as the difference between the retail and bulk rates is 15 cents per gallon. For
example, if the retail rate was $1.25 per gallon and the bulk rate was $1.10 per gallon,
the savings in this report would not change.




                                             2
Delivery Vehicle Fuel Management                                        DR-AR-09-009



Since a year-long route adjustment and inspection will soon be completed, we agree to
some extent with management that it may not be cost effective to commence a second
route adjustment effort in the short term. However, we contend management could
adjust all of the routes over time or whenever changes which require elimination or
modification to routes occur. On the other hand, if management considers mobile
fueling for those units spending 2 or more hours daily for fueling vehicles, then
immediate route adjustments may be warranted.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Vice Presidents Area Operations
    Wayne W. Corey
    Bill Harris




                                            3
Delivery Vehicle Fuel Management                                                              DR-AR-09-009




                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service operates the largest civilian fleet in the world, with mail
transportation accounting for approximately 75 percent of its total energy costs. As
shown in Table 1, in FY 2008, the Postal Service operated over 221,000 vehicles, using
about 90 percent of these vehicles for delivery. Transportation costs are divided almost
evenly between contractor transportation and the Postal Service-owned fleet. Between
2001 and 2007, fuel consumption decreased by 178,057 gallons, while costs increased
$129 million. During this time the Postal Service spent approximately $2.23 billion on
fuel $562 million (25 percent) of which was for gasoline. The Postal Service-owned
fleet traveled an estimated 1.3 billion miles and used an estimated 123 million gallons of
fuel.

                             Table 1. Postal Service Vehicle Inventory

                                                                                 Number of
                                             Vehicle Type
                                                                                  Vehicles
                                                                             2
                            Delivery and Collection (½ - 2 ton ) LHD & RHD          197,898

                            Mail Transport (Tractors and Trailers)                    6,455

                            Administrative and Other                                  5,906

                            Service (Maintenance)                                     5,272

                            Inspection Service and Law Enforcement                    3,288

                            Mail Transport (3-11 ton)                                 2,228

                               TOTAL VEHICLES                                       221,047

                  Source: Postal Service Comprehensive Statement on Postal Operations, 2008.

The Postal Service has several ways to fuel its petroleum based vehicles.3
See Appendix F.

            Voyager Card (eFleet) – The Postal Service began using the Voyager Card in
             January 2000. As of September 2007, the Postal Service had issued
             approximately 250,000 cards service-wide for use at retail locations by offices
             without fuel storage. In FY 2008, Voyager Card transactions nationwide
             totaled about $344 million for retail fuel purchases for delivery vehicles. Total
             gasoline purchases were $555 million, which included rural and highway
             contractor routes. See Chart 1.
2
 Left-hand drive (LHD) and Right-hand drive (RHD) delivery vehicles.
3
 The Postal Service also has vehicles that are fueled by other sources such as electricity and compressed natural
gas.


                                                             4
Delivery Vehicle Fuel Management                                                       DR-AR-09-009



                    Chart 1. 2008 Voyager Card Purchases Nationwide




         Source: Computer Assisted Assessment Techniques Continuous Monitoring System and E-Fleet.


           Bulk Fuel Purchasing – The Postal Service spends approximately $50 million
            annually through an interagency agreement with the Defense Energy Support
            Center (DESC). The Postal Service can make the following bulk fuel
            purchases:

            o Less than 2,000 gallons a year using local buying procedures and storing
              the fuel at the vehicle maintenance facility (VMF).

            o Fuel requirements between 2,000 and 20,000 gallons per year through
              basic pricing agreements.

            o   Fuel purchases exceeding 20,000 gallons per year through DESC
                suppliers using delivery order agreements. The Transportation Asset
                Management Category Management Center issues delivery order
                agreements and only designated ordering individuals can place written
                orders4 for the fuel.

           Mobile Refueling – The Postal Service spends over $30 million annually for
            fuel transported directly to delivery units by a mobile fueling contractor. The
            Postal Service stated that having these suppliers provides a reliable

4
  Fuel orders must be made up to the maximum tank capacity and submitted though eBuy. eBuy requests can be
funded for 5 years to cover the length of the contract, or 6 months to a year.


                                                      5
Delivery Vehicle Fuel Management                                                                   DR-AR-09-009



              contingency service during natural disasters. Specifically, mobile refueling
              suppliers are able to provide emergency fueling services since their tanks are
              not affected by power outages or flooding. Postal Service-owned vehicles,
              rural route carriers, highway contractors, and postal employees’ personal
              vehicles all have the capability of using mobile refuel service if it is available
              in the geographical location of the emergency. The mobile supplier charges a
              premium (surcharge) of between 25 cents and 40 cents per gallon to provide
              this service. The national average surcharge for FY 2008 was 38 cents per
              gallon.

              The Postal Service’s Supply Chain Management is responsible for mobile
              fueling contracts. Mobile fueling contracts require suppliers to submit an offer
              price to the Postal Service as a total single price per gallon. The total price
              should include the approved published index rate for the specific type of fuel,5
              taxes, and the supplier’s pumping/delivery fee. Although the Postal Service is
              exempt from state and local taxes where permitted by state law, the supplier
              must include applicable fuel taxes in the state where the Postal Service site is
              located in their offer. The pumping/delivery fee, often referred to as the
              surcharge, includes all of the supplier’s costs, including those associated with
              obtaining environment permits and profit. The pumping/delivery fee remains
              fixed throughout the contract and is used to validate all invoices.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the business case to fuel delivery vehicles onsite, using a
mobile fueling contractor, rather than continuing the current practice of carriers
purchasing fuel at local retail vendors. Based on discussions with Postal Service
Headquarters and our assessment of mobile contractor viability, we confined our review
to delivery units with 30 or more motorized city routes and rural delivery routes as of
January 2009. We identified 1,0876 city and rural units meeting our criteria. For these
units, we requested or obtained information from the district and other sources —such
as the Web Enterprise Information System, Delivery Operations Information System
(DOIS), and E-Fleet — relating to the number of motorized routes, gallons of fuel used,
mileage deviation to obtain fuel, and amount of time carriers spend weekly fueling
vehicles. We obtained information in relation to average retail price per gallon, mobile
fueling surcharge, and bulk rate used for mobile fuel from Postal Service Headquarters
and Enterprise Data Warehouse. We also used E-Fleet to obtain Voyager Card data to
determine the amount of premium fuel purchased, the associated impact on cost, and
the amount of fuel purchased in excess of vehicle tank capacity. Using the above
information we developed a cost-saving methodology. See Appendix E.




5
  The Postal Service solicits for the loading, delivery and dispensing of fuel (i.e., regular, unleaded, diesel, E-85) to
the sites to which it awards mobile fueling.
6
  We reviewed a total of 1,017 city units and 70 rural units. We also reviewed Postal Service-owned vehicles
assigned to rural routes at 316 of the 1,017 city units.


                                                             6
      Delivery Vehicle Fuel Management                                                                DR-AR-09-009



      In addition, we reviewed documentation and applicable policies and procedures with
      regard to E-Fleet, Voyager, retail fueling, and mobile fueling. We coordinated our
      review with managers and employees at Postal Service Headquarters, areas, and
      selected districts and units.

      We conducted this performance audit from October 2008 through September 2009 in
      accordance with generally accepted government auditing standards and included such
      tests of internal controls as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our findings and conclusions based on our
      audit objective. We believe the evidence obtained provides a reasonable basis for our
      findings and conclusions based on our audit objective. We discussed our observations
      and conclusions with management officials between August 6 and 18, 2009, and
      included their comments where appropriate.

      PRIOR AUDIT COVERAGE

      The OIG has issued three reports related to our objective:

                                                                                     Monetary
           Report Title              Report Number         Final Report Date                                 Report Results
                                                                                      Impact
Delivery Vehicle Gasoline             TD-AR-02-005        September 30, 2002        $16 million7     The Postal Service could save
                                                                                                     money in several areas when
                                                                                                     purchasing gasoline for delivery
                                                                                                     vehicles. First, it could recover
                                                                                                     $3,879,538 in taxes and the
                                                                                                     Southeast Area could reduce
                                                                                                     its letter carrier workhours
                                                                                                     budget by capturing over $12
                                                                                                     million in cost reductions
                                                                                                     anticipated as a result of
                                                                                                     outsourcing fuel delivery.
                                                                                                     Management agreed with our
                                                                                                     findings and recommendations.
Vulnerability to Fluctuating Fuel    GAO-07-244            February 16, 2007            N/A          The Postal Service is highly
Prices Requires Improved                                                                             vulnerable to fuel price
Tracking and Monitoring of                                                                           fluctuations, due in part to its
Consumption Information                                                                              fuel purchasing process of
                                                                                                     buying fuel as needed, often at
                                                                                                     retail locations. Although the
                                                                                                     Postal Service tracks fuel
                                                                                                     consumption through its
                                                                                                     Voyager Card and holiday air
                                                                                                     fuel programs, it has
                                                                                                     incomplete access to fuel
                                                                                                     consumption information and
                                                                                                     limited mechanisms or systems
                                                                                                     in place to help it monitor fuel
                                                                                                     usage. Management agreed
                                                                                                     with our findings and
                                                                                                     recommendations.


      7
          This OIG report did not provide an exact dollar amount for the carrier workhour budget cost reductions.


                                                                  7
      Delivery Vehicle Fuel Management                                            DR-AR-09-009



                                                                   Monetary
        Report Title           Report Number   Final Report Date                        Report Results
                                                                    Impact
Management Advisory – Fuel     NL-MA-09-001     August 5, 2009     $20 million   The Postal Service has taken
Management Initiatives for                                                       positive steps in developing a
Surface Network Operations –                                                     fuel strategy to promote
Fuel Purchasing Strategy                                                         efficiencies and realize cost
                                                                                 savings in purchasing fuel.
                                                                                 However, the Postal Service
                                                                                 has not yet fully planned and
                                                                                 implemented the fuel strategy
                                                                                 to accomplish the desired
                                                                                 outcomes and has recently
                                                                                 placed the fuel strategy on hold
                                                                                 because of competing priorities.
                                                                                 As a result of this delay, the
                                                                                 Postal Service has incurred
                                                                                 about $20 million in
                                                                                 unnecessary fuel acquisition
                                                                                 costs since August 2008.
                                                                                 Management agreed with our
                                                                                 finding and recommendations.




                                                     8
Delivery Vehicle Fuel Management                                                               DR-AR-09-009



                                 APPENDIX B: DETAILED ANALYSIS

The Postal Service has a favorable business case for expanding the use of mobile
fueling to selected Postal Service delivery units. Our analysis determined that an
expansion of the mobile fueling program would:

            Reduce carrier time used to fuel vehicles and the amount of fuel consumed
             when carriers deviate from their routes to obtain fuel.

            Eliminate questionable Voyager card fuel expenditures at selected Postal
             Service delivery units.

            Mitigate mail delays or interrupted service due to the unavailability of fuel at
             local fuel vendors in areas susceptible to natural disasters.

A sufficient number of mobile fueling contractors with the capacity to provide fuel
needed in an expanded program are available. Also, the contracting process can
successfully address environmental regulatory concerns. The Postal Service had not
evaluated the potential benefits and obstacles from expanded use.

Carriers’ Labor Time and Route Deviation Fuel Consumption

Even though the Postal Service will pay a per gallon surcharge for a contractor to
provide mobile fueling, this cost would be more than offset by eliminating carriers’ labor
time used for fueling vehicles and the amount of fuel carriers use to deviate from their
routes to fuel vehicles.

        An analysis of the 1,087 selected units in our review indicated that carriers used
         over 459,000 hours8 annually to fuel delivery vehicles. (See Table 2.)
         Specifically, because of the number of routes/delivery vehicles assigned, 169 of
         the units reviewed used between 2 and 5 hours daily to fuel vehicles. One unit in
         Worchester, MA, used almost 30 hours weekly or about 5 hours daily to fuel
         delivery vehicles. These hours, when added to the retail cost per gallon,
         effectively increased the cost per gallon for fueling delivery vehicles from $3.95
         per gallon to $4.51 (or about 56 cents more) per gallon. On the other hand,
         mobile fuel is purchased in bulk, which averages 15 to 30 cents less than the
         retail rate.9 Specifically, in FY 2008, the average bulk rate for fuel was $3.77 per
         gallon. With the per gallon surcharge of 38 cents, the effective rate for the Postal
         Service was $4.15 per gallon, or about a 36 cents per gallon average savings
         over purchasing at retail locations. See Appendix D for the fuel price per gallon
         trend.

8
  Based on discussions with Postal Service Headquarters, these hours could be captured through annual route
adjustments.
9
  Analysis shows that as long as the bulk rate averaged 18 cents lower than the retail rate, savings will be consistent
at about 36 cents per gallon. Although the variance could conceivably decrease, it has consistently averaged more
than 18 cents since FY 2008.


                                                           9
                 Delivery Vehicle Fuel Management                                                             DR-AR-09-009



                           Table 2. Estimated Mobile Fuel Cost Savings for City and Rural Routes

                               Estimated Retail Fuel Cost                                                   Mobile Fuel Cost
                                                                                                Bulk
                                                       Annual                    Retail Cost
                           Number of     Annual                        Retail                   Rate    Bulk Rate   Cost Per     Estimated
                                                        Hours                     Including
          Area             Motorized     Gallons                      Cost per                  Cost    Plus Sur-    Gallon     Annual Fuel
                                                       Used for                    Carrier
                            Routes        Used                         Gallon                   per      charge     Savings       Savings
                                                       Fueling                   Labor Cost
                                                                                               Gallon
Capital Metro                  3,057     1,536,387       27,024         $3.95         $4.59     $3.77      $4.15    $0.43994        $675,915
Eastern                        6,945     3,970,013       61,394          3.95          4.51      3.77       4.15     0.36263        1,439,648
Great Lakes                    9,206     5,135,795       81,381          3.95          4.53      3.77       4.15     0.37651        1,933,675
New York                       4,146     2,201,103       36,651          3.95          4.56      3.77       4.15     0.40580        $893,216

Northeast                      5,954     3,124,757       52,633          3.95          4.56      3.77       4.15     0.41282        1,289,974

Pacific                          N/A           N/A                0       N/A           N/A      N/A         N/A         N/A             N/A
Southeast                        939       730,316         8,301         3.95          4.36      3.77       4.15     0.21352         155,938
Southwest                      6,042     3,697,834       53,411          3.95          4.48      3.77       4.15     0.32550        1,203,661
Western                       10,496     5,749,974       92,785          3.95          4.54      3.77       4.15     0.38709        2,225,729
                 10
Rural Routes                   5,145     2,522,503       45,482          3.95          4.42      3.77       4.15     0.26167         615,154
                      11
Total/Averages                51,930    28,668,682      459,061          3.95         $4.51      3.77       4.15         $.36   $10,432,910
                 Source: DOIS, Area Vehicle Maintenance Program Analysts, Category Management Center, and the OIG


                          In addition to the cost per gallon savings, analysis revealed that mobile fueling
                           could provide the Postal Service with additional benefits through less fuel
                           consumption. We found that carriers deviated between one and two miles
                           weekly while on their route to obtain fuel for their vehicles. These deviations
                           would not be necessary under a mobile fueling process, since the fueling
                           contractor brings the fuel to the unit. For example, for the 2,895 routes in the
                           Western Area carriers deviated about 184,000 miles for fuel and consumed
                           about 18,000 gallons of fuel. However, under mobile fueling the number of
                           deviated miles would not be necessary. Overall, mobile fueling would eliminate
                           the need for the 10,022 motorized routes to deviate for fuel, thereby reducing fuel
                           consumption by about 70,600 gallons annually,12 saving approximately $279,000.
                           (See Table 3.)




                 10
                    We calculated rural routes using averages, thus we did not compute the estimated annual fuel savings from the
                 annual gallons used and cost-per-gallon savings.
                 11
                    We calculated total/averages using total numbers. Thus, we did not compute the estimated annual fuel savings
                 from the annual gallons used and cost-per-gallon savings.
                 12
                    We based gallons of fuel saved on the 10 gallons per mile average for a Long-Life Vehicle (LLV).


                                                                            10
 Delivery Vehicle Fuel Management                                                            DR-AR-09-009



                            Table 3. Estimated Fuel Consumption Savings

                    Number of
                                    Average        Estimated       Estimated
                    Motorized                                                     Estimated
                                    Weekly          Annual          Annual                          Estimated
      Area           Routes                                                       Retail Cost
                                   Deviation          Mile       Gallons used                        Savings
                    Deviating                                                     per Gallon
                                   per Route       Deviation     for Deviation
                     for Fuel
Capital Metro              466           1.29      31,259.28         3,125.93           $3.95       $12,347.42
Eastern                  1,313            1.54    105,145.04        10,514.50            3.95        41,532.29
Great Lakes              1,683           1.41     123,397.56        12,339.76            3.95        48,742.04
New York                 1,272            1.32     87,310.08         8,731.01            3.95        34,487.48
Northeast                  480           1.35      33,696.00          3369.60            3.95        13,309.92
Pacific                    N/A            N/A           N/A              N/A             N/A              N/A
Southeast                  486             .77     19,459.44         1,945.94            3.95         7,686.48
Southwest                1,427            1.64    121,694.56        12,169.46            3.95        48,069.35
Western                  2,895            1.22    183,658.80        18,365.88            3.95        72,545.23
Total/Averages          10,022         1.3175     705,620.76        70,562.08           $3.95      $278,720.20
             Source: Area Vehicle Maintenance Program Analysts and Category Management Center

 To ensure the Postal Service achieves the benefits of mobile fueling, units must include
 the cost of carrier labor as well as the cost to deviate from routes for fuel. To illustrate,
 one district in the Western Area instituted the mobile fueling practice, but discontinued
 its use. This district did not consider the savings resulting from elimination of carriers’
 fueling time or the fuel carriers used to deviate from route to obtain fuel. Our analysis
 indicated the district could have reduced its fuel costs by over $90,000 annually.
 Overall, our analysis shows mobile fueling would save the Postal Service $10,711,630
 annually or $21,423,261 for FYs 2010 and 2011 through reduced fuel cost per gallon
 and reduced fuel consumption. See Appendix E for details.

 Questionable Voyager Card Expenditures

 A mobile fueling practice at the selected units would also reduce unnecessary or
 questionable Voyager card expenditures. The Postal Service currently uses the
 Voyager Card to purchase fuel for delivery vehicles. Although Voyager Cards assigned
 to vehicles are supposed to be used only for regular grade fuel and maintenance, they
 often show numerous miscellaneous and questioned expenditures such as premium
 fuel purchases and fuel purchased in excess of tank capacity.13 Our analysis of a
 random sample of 146 Postal Service facilities revealed that carriers purchased over
 170,907 gallons of premium fuel and acquired over 16,491 gallons of fuel in excess of
 tank capacity14 at a cost of over $99,000 in FY 2008. See Table 4. Since the mobile
 fuel contractor provides fuel directly to the delivery unit, a Voyager Card would not be
 necessary for these routes. Based on our projections, we estimate the Postal Service


 13
    This analysis primarily focused on the Postal Service’s LLVs which were designed for regular grade fuel. Although
 some LLV and Flex Fuel Vehicles have upgraded tank capacity in excess of 12 gallons, the impact on our analysis is
 minimal since using mobile fueling would eliminate these costs regardless of vehicle type or tank capacity.
 14
    We did not evaluate these expenditures for impropriety since, in some situations, regular fuel may not have been
 available and premium fuel may have been necessary. Additionally, although not proper, we found in a previous
 audit that carriers sometime fueled more than one delivery vehicle with a Voyager card.


                                                          11
     Delivery Vehicle Fuel Management                                                              DR-AR-09-009



     can eliminate $892,457 annually in unrecoverable supported questioned costs, or over
     $1.78 million over a 2-year period.

                           Table 4. Questionable Voyager Card Expenditures

                                         Total                   Total Gallons               Total Cost of      Total Cost of
                                                      Total
                  Total Number        Gallons of                    of Fuel                     Fuel in         Premium and
                                                    Premium
    Area           of Units in         Premium                   Purchased in                Excess Over         Excess of
                                                       Fuel
                     Sample              Fuel                      Excess of                     Tank               Tank
                                                      Cost15
                                      Purchased                  Tank Capacity                 Capacity           Capacity
Capital Metro                   13         27,104    $5,420.85            2,699                $10,661.17          $16,082.02
Eastern                         15           8,281    1,656.22            2,919                 11,528.31           13,184.53
Great Lakes                     25         13,609     2,721.90            3,871                 15,290.06           18,011.96
New York                        11         13,509     2,701.70              460                   1,815.14           4,516.84
Northeast                        9           7,949    1,589.77              266                   1,051.02           2,640.79
Pacific                        N/A             N/A         N/A              N/A                        N/A                N/A
Southeast                       23           2,855      570.95              840                   3,316.03           3,886.98
Southwest                       26         35,252     7,050.43             1854                   7,321.96          14,372.39
Western                         24         62,348    12,469.57            3,582                 14,149.06           26,618.63
Total                          146        170,907 $34,181.39            16,491                 $65,132.75          $99,314.14
                                   Projected Savings over 1 year                                                    $892,457
                                  Projected Savings over 2 years                                                   $1,784,914
       Source: Computer Assisted Assessment Techniques Continuous Monitoring System, E-Fleet, and the OIG


     Natural Disaster Preparedness Impact

     Mobile fueling can also improve the Postal Service’s preparedness to continue mail
     delivery in areas susceptible to natural disasters, such as hurricanes and tornados.16
     Although the Postal Service uses mobile fueling in some locations in emergency
     situations, it could benefit by expanding this service to other locations susceptible to
     these condition on a regular basis.17 For example, in 2008 Hurricane Ike hit Houston,
     TX, and one emergency mobile fuel supplier could only provide fuel for 1 day and for
     only three of Houston’s largest Postal Service stations. However, in Louisiana, where
     suppliers provide mobile fuel on a regular basis, there was no impact to mail delivery
     because fuel was readily available.

     Mobile Fuel Contractor Availability

     A sufficient number of mobile fueling contractors with the capacity to provide fuel
     needed in an expanded program are available. Expanding mobile fueling to the units
     identified will require contractors to provide about 551,300 gallons of fuel weekly. Even
     though the Postal Service currently uses seven prequalified mobile fueling contractors
     located throughout the country, they may not be capable of providing service or the fuel
     15
        We based the computation on the number of gallons multiplied by 20 cents (difference between average unleaded
     and premium gasoline for FY 2008).
     16
        The Postal Service uses mobile fueling during emergency situations only in the Southwest Area’s Houston and
     Arkansas Districts because these areas are susceptible to natural disasters, such as hurricanes and tornados.
     17
        The Postal Service uses mobile fueling on a regular basis in most of the districts in the Southeast Area and in the
     Honolulu, Louisiana, Mid-America (except for Kansas City, KS, because the contract was cancelled) and Nevada
     Districts.


                                                               12
Delivery Vehicle Fuel Management                                                                DR-AR-09-009



needed to all 1,087 selected units. Additionally, a single contractor may not be capable
of handling all units in a large geographic area. Under these circumstances, the Postal
Service could supplement its current list of contractors, as necessary, to service all
units.18 For example, the Postal Service used mobile fueling during the hurricane
emergencies in the Houston, TX, area, but had to supplement the assigned contractor
with an additional contractor because there was not enough capacity to provide mobile
fuel for the entire area.

Environmental Concerns

The Postal Service can successfully address its environmental regulatory concerns
through the contracting process. During the audit, Postal Service Headquarters'
Environmental Policy and Programs officials became concerned over liability relating to
environmental policies and the potential reduction in savings due to federal, state, and
local requirements. These are valid concerns and we agree that all environmental
requirements and costs are the responsibility of the Postal Service.

The Environmental Protection Agency (EPA) requires refueling facilities needing tanks,
hoses, and other “point sources” that would spill or leak into the local water supply to
obtain a National Pollutant Discharge Eliminating System (NPDES) permit. The
requirements for NPDES19 permits and Spill Prevention Control and Countermeasure
(SPCC) plans along with any sampling and monitoring have to be considered as extra
costs and an administrative burden. However, the costs of permitting are often imposed
on contractors.

The Postal Service, as owner, would be liable for any environmental violations that may
occur as a result of mobile fueling. However, our review of existing mobile fueling
locations and discussions with contracting officials indicate that the Postal Service only
contracts with fueling contractors after the contractor has obtained the required permits
and environmental plans. The contractor’s surcharge amount is included in the cost for
these permits and plans. Specifically:

        The existing contract requires mobile contractors to obtain the necessary permits
         to adhere to EPA Clean Water Act and the NPDES and SPCC regulations.

        Although the above action does not relieve the Postal Service from liability, the
         agency could be indemnified by the mobile fuel suppliers with insurance against
         spills if it needs to litigate a claim.


18
   Based on discussions with headquarters Postal Service Supply Management, review of locations where current
prequalified contractors are located, and research of companies that provide mobile fueling, we believe contractors
are available with the capacity to provide fuel needed.
19
   Per the Code of Federal Regulations Section 122.26(g), if an industry’s refueling operations do not expose the
environment to oil/fuel (via covered facilities, sealed transfer valves and non-leaking tanks/vehicles), that industry is
conditionally exempt from NPDES permit requirements. The term “conditionally exempt” means that if conditions
change, the exempt status is instantly revoked; although a site could design its refueling operations to ensure it keeps
its exemption.


                                                           13
Delivery Vehicle Fuel Management                                          DR-AR-09-009



      To further minimize the risk of spills while on Postal Service property, suppliers
       could be required to follow some best practices. For example:

           o Placing portable, collapsible spill containment containers or absorbent
             containment pads with sufficient capacity under the fuel nozzle and fill
             opening while filling the tank.

           o Using automatic shut-off nozzles.

           o Maintaining and replacing equipment on fueling vehicles, particularly
             hoses and nozzles, at established intervals to prevent failures.

           o Prohibiting the operator from leaving the vehicle while filling it.

   See Appendix C for a detailed list of best practices that can mitigate or reduce
   environmental concerns.




                                             14
Delivery Vehicle Fuel Management                                                       DR-AR-09-009



                         APPENDIX C: MOBILE FUELING BEST PRATICES

The following is a list of best practices20 the Postal Service could use to minimize the
risk of spills while on Postal Service property:

          Placing portable, collapsible spill containment containers or absorbent
           containment pads with sufficient capacity under the fuel nozzle and fill opening
           while filling the tank.
          Wrapping absorbent pads around the nozzle when filling.
          Using automatic shut-off nozzles.
          Replacing automatic shut-off nozzles as recommended by the manufacturer.
          Maintaining and replacing equipment on fueling vehicles, particularly hoses and
           nozzles, at established intervals to prevent failures.
          Prohibiting the operator from leaving the vehicle while filling it.
          Removing the fill nozzle and ceasing filling when the automatic shut-off engages.
          Prohibiting "topping off."
          Keeping absorbent pads under the nozzle and keeping the nozzle facing
           upwards while transferring it between the filling vehicle and vehicle being fueled.
          Keeping the act of dragging hoses to a minimum.
          Prohibiting laying filling nozzles on the ground.
          Requiring all fueling vehicles to have a minimum of these spill clean-up materials:
              o Non-water absorbents capable of absorbing 16 gallons of diesel.
              o A storm drain plug kit.
              o A containment boom of a minimum 10 feet in length.
          Requiring all fueling vehicles to have adequate lighting systems at the filling
           point.




20
     We obtained a list of best practices from the OIG’s Joint Legal Service Center.


                                                            15
Delivery Vehicle Fuel Management                                               DR-AR-09-009



                             APPENDIX D. FUEL PRICE TREND

                           Source: Postal Service Category Management Center




                                                 16
Delivery Vehicle Fuel Management                                             DR-AR-09-009



        APPENDIX E: MONETARY IMPACT COST SAVINGS METHODOLOGY

The OIG identified $23,208,175 in monetary impact related to fuel for city and rural
delivery routes using Postal Service-owned vehicles and related Voyager Card
purchases. We estimated the Postal Service could save $21,423,261 in funds put to
better use over the next 2 years by expanding the use of mobile fuel to the 1,087 units
with 30 or more motorized routes. In addition, we identified $1,784,914 in
unrecoverable supported questioned costs associated with Voyager Card purchases of
premium fuel and fuel in excess of tank capacity. This audit included eight areas that
could benefit from mobile fueling and limiting the use of Voyager Cards. We estimated
the monetary impact by area for 2 years from FYs 2010 through 2011. See Table 5.

                          Table 5. Total Monetary Impact by Area

                            Estimated
                          Annual Mobile         Estimated
                                                               Annual
                            Fuel Cost             Fuel                     Monetary Impact
          Area                                                Monetary
                           Savings for         Consumption                  over 2 Years
                                                               Impact
                          City and Rural         Savings
                              Routes
 Capital Metro                     $751,763      $12,347.42    $764,111         $1,528,221
 Eastern                           1,475,820      41,532.29    1,517,352         3,034,704
 Great Lakes                       2,000,507      48,742.04    2,049,249         4,098,498
 New York                            911,197      34,487.48      945,684         1,891,368
 Northeast                         1,318,104      13,309.92    1,331,414         2,662,829
 Pacific                                 N/A           N/A                             N/A
 Southeast                           193,994       7,686.48      201,680           403,360
 Southwest                         1,334,459      48,069.35    1,382,528         2,765,056
 Western                           2,447,067      72,545.23    2,519,613         5,039,225
 Total Funds Put to
 Better Use (Mobile          $10,432,910         278,720.20   10,711,630       $21,423,261
 Fuel Savings)
 Unrecoverable
 Supported
 Questioned Costs                                              $892,457         $1,784,914
 (Voyager Card)
 Savings
   TOTALSAVINGS                                                                $23,208,175

Mobile Fueling Analysis

We used the following data elements to develop the monetary impact for the 1,087 units
with 30 or more city and rural routes.

      Number of city motorized routes.
      Number of rural routes with LLVs assigned.
      Number of Postal Service-owned vehicles assigned to units with 30 or more city
       and rural routes.
      Annual estimate of weekly gallons of fuel used.


                                                  17
Delivery Vehicle Fuel Management                                                               DR-AR-09-009



        Average time weekly used by carrier to fuel vehicles.21
        Average cost per gallon for regular and bulk fuel in FY 2008.22
        Average surcharge for mobile fueling contractors.
        City Carrier Overtime Rate and Full Time/Straight Time for Rural Carriers.23

Fuel Consumption Analysis

        Number of routes24 and miles deviated by carriers to fuel their vehicles.

             o Calculated the route deviation in miles that would be saved by identifying
               the number of times vehicle operators refueled at retail locations.

             o Multiplied the number of fueling weeks in a year by a fueling time of once
               per week by the number of routes carriers had to deviate to fuel vehicles.

        Calculated the number of gallons that would be saved by dividing the route
         deviation miles by the average number of miles per gallon for an LLV (i.e., 10
         miles).

        Calculated the mileage consumption costs savings by multiplying the annual
         gallons savings by the average costs per gallon.

Questioned Cost Analysis

        Used an unrestricted random sample of 146 units from the universe of units with
         30 or more city/rural routes.

        Included in FY 2008 total Voyager Card purchases the number of retail fuel
         purchases made, the total amount and cost of premium fuel purchased, the
         number of gallons used, and the total amount of fuel purchased in excess of tank
         capacity.

        Calculated the number of gallons by multiplying .20 per gallon which is a
         conservative number (.25 is difference between the average unleaded regular
         gasoline and unleaded premium for 2008).



21
   The Postal Service estimates this to be about 30 minutes weekly to account for activities other than purely pumping
fuel. We used a more conservative estimate of 10 minutes which did not include associated non-fueling time.
22
   Analysis used a rate of at least a 15 cents difference between the retail (pump) rate and the bulk rate which has
averaged 23 cents less than retail since October 2007.
23
   Based on discussions with Postal Service Headquarters, cost savings can be captured through annual route
adjustments. We based our calculations on the use of the overtime rate for city carriers because we believe savings
can also be captured through the reduction of overtime. We used full time/straight labor rate for the rural carriers
because we believe savings can also be captured through reduction of time on route.
24
   We took the number of routes from a universe of 1,257 units that did not include units in the Pacific Area because it
was excluded due to environmental concerns. Also, it did not include cities and districts that prohibit mobile fueling
and other specific locations because the installations did not provide data.


                                                          18
Delivery Vehicle Fuel Management                                                             DR-AR-09-009



        Calculated the total number of gallons used for fuel in excess of tank capacity
         and subtracted 12 gallons from the total number since this amount is the tank
         capacity of an LLV.25

        Computed the number of gallons over 12 and multiplied it by $3.95 which is the
         average price of unleaded regular gasoline for the Postal Service in FY 2008.




25
  This analysis primarily focused on Postal Service LLVs which were designed for regular grade fuel and 12 gallon
tank capacity. Although some LLV and Flex fuel vehicles have upgraded tank capacity in excess of 12 gallons, the
impact on our analysis is minimal since the cost would be eliminated under mobile fueling regardless of vehicle type
and tank capacity.


                                                         19
Delivery Vehicle Fuel Management                        DR-AR-09-009



                    APPENDIX F: FUEL PURCHASING FLOWCHART




                                                                        




                                     20
Delivery Vehicle Fuel Management                         DR-AR-09-009



                          APPENDIX G: MANAGEMENT’S COMMENTS




                                       21
Delivery Vehicle Fuel Management        DR-AR-09-009




                                   22
